                              CLOSEOUT FOR M-94060023




three of the publications listed &I the subject's " ~ e s u l t from
                                                                s    *or NSF sipport" statement as
 representing work accomplished with funds from NSP award,-                         ("the award"),
 could not have been accomplished under "the award" because the submission-dates for the two
 articles and one abstract, and the publication dates for the two articles, pre-dated the initiation
 of "the award." The two co-PIS were not considered subjects in this case because neither of
 them was associated with any of the information provided in the subject's statement.

       OIG reviewed information supplied by the complainant, as well as the subject's NSF
proposal and his relevant awards and listed publications.

        In the subject's "Results From Prior NSF Support" statement in the proposal, he
explained that "the award, " a three-year continuing grant, provided support for the publications
listed, but that "the award" had actually begun a year earlier as another award ("the original
award"). Because the subject had changed institutions and transferred "the original award, " NSF
had closed "the original award, " and opened it as "the award" with a new number and initiation
date.

       OIG found that the two articles and the one abstract questioned by the complainant were
published between eight and seventeen months after the beginning of the "original award," and
that the two articles acknowledged NSF support. OIG compared the three publications'
submission dates with the "original award's" initiation date. The abstract had been submitted
nine months, and published seventeen months, after the initiation of the "original award" and
therefore could reasonably represent work supported by the "original award." However, one
of the articles had been submitted one day after the "original award's" initiation date, and the
other article had been submitted three months prior to "the original award's" initiation date.

       Review of the subject's NSF PI history revealed that he had received an NSF three-year
continuing grant ("the earlier award") that preceded "the original award." "The earlier award"


                                            Page 1 of 2                                    M94-23
                             CLOSEOUT FOR M-94060023
had the same title as "the original award" and "the award," and the three grants provided the
subject with a total of six years of NSF support. OIG concluded that, considering the
consecutive nature of the three identically titled NSF awards, the subject may not have been
careful when identifying the exact NSF grant that provided support for the articles listed in his
statement.

         OIG concluded that the subject's three publications could reasonably represent work
supported with NSF funds from either the subject's "earlier award" or his "original award," and
that the subject's apparent failure to differentiate work supported by identically titled NSF
research awards published from eight to seventeen months after the inception of the "original
award" was not unreasonable in light of the ongoing nature of his same research project. OIG
concluded that there was insufficient substance to pursue this case.

        At OIG's request the program officer discussed the need to provide accurate information
in his "Results from Prior NSF Support" statements with the subject. This inquiry was closed
and no further action will be taken in this case.

cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                          Page 2 of 2
